HHS/OIG, Audit - "Review of Billing Procedures for Medicare Claims Submitted to Riverbend Government Benefits Administrator by Inpatient Psychiatric Facilities During 2005," (A-01-07-00507)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Billing Procedures
for Medicare Claims Submitted to Riverbend Government Benefits Administrator by
Inpatient Psychiatric Facilities During 2005," (A-01-07-00505)
July 19, 2007
Complete Text of Report is available in PDF format (788 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether inpatient
psychiatric facilities (IPF) properly submitted Medicare claims paid by
Riverbend Government Benefits Administrator (Riverbend) for transition stays.
IPFs did not always properly submit claims paid by Riverbend for transition stays
in 2005.  Specifically, for 82 of the 100 claims that we sampled (from the
population of 184 claims), IPFs incorrectly split the beneficiarys stay by
submitting 1 claim under the Tax Equity and Fiscal Responsibility Act of 1982
payment period and 1 or more claims under the prospective payment period, rather
than properly submitting 1 claim for the entire inpatient stay.  Based on our
sample results, we estimate that Riverbend overpaid IPFs a total of $1,067,157
for incorrectly billed Medicare claims for transition stays in 2005.
We recommended that Riverbend (1) make the appropriate
adjustments to the sampled claims that resulted in overpayments of $579,977, (2)
review our information on the additional 84 claims with potential overpayments
estimated at $487,180 ($1,067,157 less $579,977) and work with the IPFs that
provided the services to recover any overpayments, and (3) analyze postpayment
data from IPF claims submitted after our review to ensure that the claims were
billed properly and paid correctly by Riverbend .
Riverbend agreed with our findings and recommendations and
stated that it was taking appropriate action.